                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109040019                                                                      Page 1 of 1



         We conducted a joint investigation with the OIGs of the National Endowment for the Arts and
         the National Endowment for the Humanities, involving WGBH, a public broadcasting company
         in Boston, Massachusetts for allegedly failing to properly track or account for the expenditure of
         federal grant funds.

         Our investigation resulted in a settlement agreement requiring WGBH to reimburse the federal
         government over $300,000 and to enter into a five-year compliance plan. The settlement
         agreement, compliance plan and associated press release are attached.

         Accordingly, this case is closed.




NSF OIG Form 2 (11102)
                          United States Attorney Carmen M. Ortiz
                                 District of Massachusetts

FOR IMMEDIATE RELEASE                         CONTACT: CHRISTINA DiIORIO-STERLING
December 20, 2012                                              PHONE: (617)748-3356
WWW.USDOJ.GOV/USAO/MA                            E-MAIL: USAMA.MEDIA@USDOJ.GOV


  WGBH PAYS $300,170 TO SETTLE CLAIMS THAT ITS ACCOUNTING SYSTEMS
      DID NOT PROPERLY ACCOUNT FOR FEDERAL GRANT MONEY

        Boston - The United States announced today that it has reached a civil settlement with
WGBH, under which WGBH will pay $300,170 to resolve allegations that it failed to properly
track and account for federal grant monies from the National Science Foundation, the National
Endowment for the Humanities, and the National Endowment for the Arts. WGBH will also
enter into a five-year Compliance Agreement in order to settle the allegations against it.

        The United States contended that during the period from 2005 to 2008, WGBH, in
violation of the terms of its grants and regulatory requirements, maintained an inadequate
accounting system for tracking grant expenditures. As a result, WGBH could not adequately
ensure and demonstrate that project costs charged to federal grants from the three agencies were
reasonable, allowable, and allocable to the grants. Today’s settlement will recover for damages
incurred by the affected federal programs, as well as providing substantial future oversight to
prevent future deficiencies.

         “This settlement underscores that recipients of federal grant money must be scrupulous
in their accounting for how those funds are spent, and in making accurate reports to federal
grantors,” said United States Attorney Carmen M. Ortiz.

         U.S. Attorney Ortiz announced the settlement today along with Allison C. Lerner,
Inspector General of the National Science Foundation, Laura M.H. Davis, Acting Inspector
General for the National Endowment for the Humanities, and Tonie Jones, Inspector General for
the National Endowment for the Arts. The case was handled by Assistant U.S. Attorney Barbara
Healy Smith of Ortiz’s Civil Division.

                                              ###
